<html>
<title> - KARSHI-KHANABAD: HONORING THE HEROES OF CAMP STRONGHOLD FREEDOM</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                            KARSHI-KHANABAD:

                          HONORING THE HEROES

                       OF CAMP STRONGHOLD FREEDOM

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 18, 2020

                               __________

                           Serial No. 116-126

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
      


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                             
                             
                               ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
42-593 PDF               WASHINGTON : 2021                             
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Wm. Lacy Clay, Missouri              Jim Jordan, Ohio
Stephen F. Lynch, Massachusetts      Paul A. Gosar, Arizona
Jim Cooper, Tennessee                Virginia Foxx, North Carolina
Gerald E. Connolly, Virginia         Thomas Massie, Kentucky
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             Gary Palmer, Alabama
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Clay Higgins, Louisiana
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Fred Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California

                     David Rapallo, Staff Director
                     Daniel Rebnord, Chief Counsel
                          Amy Stratton, Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                                 ------                                

                   Subcommittee on National Security

               Stephen F. Lynch, Massachusetts, Chairman
Jim Cooper, Tennesse                 Glenn Grothman, Wisconsin, Ranking 
Peter Welch, Vermont                     Minority Member
Harley Rouda, California             Paul A. Gosar, Arizona
Debbie Wasserman Schultz, Florida    Virginia Foxx, North Carolina
Robin L. Kelly, Illinois             Michael Cloud, Texas
Mark DeSaulnier, California          Clay Higgins, Louisiana
Stacey E. Plaskett, Virgin Islands   Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Bob Gibbs, Ohio

                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on November 18, 2020................................     1

                               Witnesses

Dr. Patricia R. Hastings, Chief Consultant, Post Deployment 
  Health Services, Department of Veterans Affairs
Oral Statement...................................................     5
Dr. David J. Smith, Deputy Assistant Secretary of Defense for 
  Health Readiness, Policy and Oversight,Department of Defense
Oral Statement...................................................     4

Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

Documents entered into the record during this hearing and 
  Questions for the Record (QFR's) are listed below/available at: 
  docs.house.gov.

  * Letter to Secretary Wilkie from Chairman Lynch, Chairwoman 
  Maloney, Ranking Member Comer, and Ranking Member Grothman; 
  submitted by Chairman Lynch.

  * Testimony by Paul Widener from the National Security 
  Subcommittee Hearing on February 27, 2020; submitted by Rep. 
  Grothman.

  * Environmental Protection Web Page entitled Health and 
  Environmental Effects of Particulate Matter; submitted by Rep. 
  Kelly.

  * Fact Sheet from the Agency for Toxic Substances and Disease 
  Registry; submitted by Rep. Kelly.

  * Letter to Secretary Wilkie from Rep. Luria and the response 
  from Secretary Wilkie; submitted by Rep. Luria.

  * Letter to former Secretary Esper from Rep. Luria and the 
  response from former Secretary Esper; submitted by Rep. Luria.



                            KARSHI-KHANABAD:

                          HONORING THE HEROES

                       OF CAMP STRONGHOLD FREEDOM

                              ----------                              


                      Wednesday, November 18, 2020

                   House of Representatives
          Subcommittee on National Security
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen F. Lynch 
(chairman of the subcommittee) presiding.
    Present: Representatives Lynch, Welch, Kelly, DeSaulnier, 
Grothman, Gosar, Foxx, Cloud, Higgins, and Green.
    Also present: Representatives Speier and Luria.
    Mr. Lynch. The committee will now come to order. Without 
objection, the chair is authorized to declare a recess of the 
committee at any time.
    I will now recognize myself for an opening statement.
    Good morning, everyone, again. Last week, we celebrated 
Veterans Day to honor the brave men and women who have sworn to 
protect the United States throughout our Nation's history. Our 
country owes them all a solemn debt of gratitude. Too often, 
however, when our sons and daughters in uniform have returned 
home with the scars of war, our government has failed them.
    From Agent Orange in Vietnam to toxic exposures from burn 
pits in Iraq and Afghanistan, our Nation's veterans have 
repeatedly sought acknowledgement of their injuries and 
assistance from Washington, only to be met with resistance, 
skepticism, and doubt.
    This story is regrettably playing out once again for the 
soldiers, airmen, marines, and National Guardsmen who deployed 
to Karshi-Khanabad, better known as K2, which is a former 
Soviet airbase in Uzbekistan on the Afghan border; that U.S. 
Forces used to support military operations in Afghanistan 
following the September 11 terrorist attacks.
    Between 2001 and 2005, more than 15,000 men and women 
deployed to K2 to support Operation Enduring Freedom. 
Declassified assessments conducted by the military in the early 
2000---well, in 2000's and released by our committee in July 
show that servicemembers who were deployed to K2 were exposed 
to multiple harmful toxins and environmental hazards left over 
from their former Soviet occupants, including jet fuels, 
volatile organic compounds, depleted uranium, burn pits, 
particulate matter, and other cancer-causing chemicals.
    Today, nearly 20 years later, the veterans and 
servicemembers who deployed to K2 have self-reported nearly 
2,000 adverse health conditions, including 491 cancers, that 
they believe are connected to their prior service and exposure 
at K2. Yet despite this clear evidence that servicemembers were 
exposed to dangerous hazards at K2, the VA inexplicably 
continues to deny that the life-altering illnesses reported by 
these veterans are service-connected, even after a 2015 Army 
public health study found that K2 servicemembers were five 
times--five times--more likely to develop certain forms of 
cancer, compared with others who deployed to South Korea and 
other deployments.
    The VA's continued denial has left hundreds, if not 
thousands, of K2 veterans ineligible for certain preventative 
health programs and unable to receive a disability benefit in 
connection with their service at K2. This is an injustice that 
must be rectified, and Secretary Wilkie has the authority to 
fix it by granting presumptive status to K2 veterans today.
    If we as a Nation are willing to send our sons and 
daughters in uniform to war, then we must be prepared to care 
for them upon their return home. Instead, DOD and the VA's 
response to the concerns of K2 veterans and their families, and 
this subcommittee, have been inadequate.
    If not for our oversight, DOD likely would not have 
declassified hundreds of pages detailing the toxic hazards U.S. 
Forces were exposed to at K2, and the VA would likely have not 
committed to launching a new epidemiological study. I knew I 
was going to stumble on that. Even then, DOD withheld these 
declassified documents from our committee for months, and the 
VA study is expected to take at least a year, all while K2 
veterans are left waiting for answers.
    While I do appreciate the participation of our witnesses, 
Dr. Hastings and Dr. Smith, as well as their service to the 
country, I'm disappointed that the VA declined to provide an 
assistant secretary-level policymaker, as we requested, on a 
bipartisan basis, to testify alongside Dr. Hastings at today's 
hearing.
    Our K2 veterans and the families have sacrificed enough on 
behalf of our Nation, and many are still suffering. They 
deserve the highest level of attention from both Departments, 
and sending an additional VA representative to testify 
alongside Dr. Hastings at today's hearing would have more fully 
demonstrated that commitment.
    Before I yield the floor to Ranking Member Grothman, I'd 
like to personally thank him and Ranking Member Comer for the 
bipartisanship that they and their staff, very capable staff, 
have demonstrated throughout this investigation. We have worked 
as partners, as we should.
    I'd also like to thank Chairwoman Maloney for her 
unwavering support of our post-9/11 warriors, as well as the 
gentleman from Tennessee, Congressman Green, for his 
partnership and leadership on this issue and for cosponsoring 
H.R. 5957, the K2 Veterans Toxic Exposure Accountability Act of 
2020. We did that earlier this year.
    With that, I'll yield to the ranking member from the great 
state of Wisconsin, Mr. Grothman.
    Mr. Grothman. Thank you very much.
    First of all, I thank you personally for holding this 
important hearing. As you mentioned, it's a bipartisan 
priority, and I'm glad we're able to work together on this. 
Helping all veterans, and particularly those serving in K2, is 
very important.
    And I'd like to thank Dr. Green, a member of the 
subcommittee, who's one of the veterans that served at K2. I 
want to offer my gratitude to him for his service to the 
country and continued fight to bring justice to the veterans 
that served along with him. I met some of these people 
personally, and you can't help but be impressed.
    This is a unique opportunity as a whole to come together 
and get something done. I sincerely thank the chairman for your 
work and want to echo your statements with regard to the 
witnesses today. We did request a senior-level policymaker, in 
particular, dealing with the health of people who put their 
lives on the line in the country. I think that's a minimum that 
should be expected.
    We have the utmost respect for you and your work, Dr. 
Hastings. It's vitally important to hear what administrative 
policy and remedies may exist for these veterans. I hope we can 
still find an appropriate time to hear from a senior VA 
policymaker even at this late date. Without significant support 
from both your Departments, any congressional effort to make 
these veterans whole will be futile.
    After the terrorist attacks on September 11, we deployed 
units to K2 in Uzbekistan in preparation for invasion to 
Afghanistan. An old Soviet base, unfortunately, posed serious 
toxic risks, and we knew about those toxic risks, as I 
understand it, before we deployed the troops there. We've heard 
stories of a pond that flowed green, black sludge coming up 
from the ground and contaminated soil throughout the base. 
Since that base was closed, there have been enumerate cancers, 
illness, and deaths reported from those who served, and we're 
going to ask some questions regarding that today.
    This is a saddening and largely forgotten tragedy. I 
understand and am encouraged by efforts undertaken by both of 
you to understand more about the dangers associated with K2. 
Development of a K2 roster will make much needed transparency 
and help the VA make determinations and help Congress make 
determinations, quite frankly. Conducting a comprehensive study 
to assess the connections between toxic exposure on K2 and 
subsequent illnesses is encouraging. That's a good start, and 
we must continue to push forward.
    Further, since our last hearing in February, numerous 
environmental site studies and operational health risk 
assessments have been declassified. They show that multitudes 
of toxins--they show the multitude of toxins that these 
servicemembers could be exposed to, including jet fuel, PM10, 
and radiation.
    Shockingly, these documents in previous testimony showed 
the military leaders did not communicate the risk of K2 with 
those stationed there, despite being instructed to do so, which 
is just callousness almost beyond belief. I fully understand 
that neither of you were in charge, but I hope you feel as we 
do, that, you know, we owe a little bit more attention to the 
people who put their lives on the line for this country.
    We need to be encouraging screenings for those who served 
at K2, and we need to be encouraging K2 veterans to speak up 
and come to the VA to seek treatment.
    The subcommittee will continue to fight for all 
servicemembers that were stationed at K2 and their families. We 
cannot afford to sit idly by as those who put their lives on 
the line for this country continue to get sick. I hope this 
hearing can inform everyone, including the press, how it's best 
to move forward.
    Again, thank you to the witnesses for being here. I thank 
you one more time for showing this--for having this hearing. I 
yield back.

    Mr. Lynch. I thank the ranking member.
    Before we continue, I have a few quick housekeeping 
matters. Without objection, Ms. Speier, the gentlewoman from 
California; Mrs. Luria, the gentlewoman from Virginia, shall be 
permitted to join the subcommittee and be recognized for 
questioning the witnesses. They have each done extensive work 
on this issue and on caring for our veterans in general, and we 
appreciate their participation. They are each subcommittee 
chairs on Armed Services, so they deal directly with this 
subject matter as well.
    I'd like to introduce our witnesses. First, today, we have 
Dr. David J. Smith, who is the Deputy Assistant Secretary of 
Defense for Health Readiness Policy and Oversight at the 
Department of Defense. Welcome.
    And we'll also hear from Dr. Patricia R. Hastings, who is 
the chief consultant for the post-deployment health services at 
the Department of Veterans Affairs.
    In accordance with the committee rules, would you both 
please rise and raise your right hands?
    Do you swear or affirm that the testimony you're about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    OK. Let the record--you may be seated. Let the record show 
that the witnesses have answered in the affirmative.
    Without objection, your written statements will be made 
part of the record. And with that, Dr. Smith, you are now 
recognized to offer a verbal presentation and summary of your 
testimony.

STATEMENT OF DR. DAVID J. SMITH, DEPUTY ASSISTANT SECRETARY OF 
 DEFENSE FOR HEALTH READINESS POLICY AND OVERSIGHT, DEPARTMENT 
                           OF DEFENSE

    Dr. Smith. Well, good morning, Chairman Lynch, Ranking 
Member Grothman, and the other distinguished members of the 
committee. It's my pleasure to appear here today representing 
the Department of Defense to address any concerns or questions 
members may have regarding the environmental conditions at the 
Karshi-Khanabad Airbase, or K2 as we call it, and the 
Department's efforts to protect the health of current and 
former servicemembers who deployed to that location.
    Now, first, I would like to acknowledge that in the 15 
years since its closure, several K2 veterans have passed away, 
and many K2 veterans have reported significant health 
challenges. The untimely death or unexpected development of 
illness in current or former servicemembers is of great concern 
to the Department, and I personally want to express my 
heartfelt sympathies and condolences to any servicemembers and 
their family members so affected.
    Now, the Department is fully committed to transparency with 
respect to the possible environmental exposures at K2. The 
documents already provided to the committee demonstrate the 
Department has followed its policies regarding environmental 
evaluation at forward operating bases.
    There has been extensive sampling of soil, water, and air, 
and we documented the results of these evaluations and 
implemented appropriate mitigation steps. We conducted followup 
environmental evaluations in 2002, in 2004, and made the 
summary of our findings and conclusions publicly available.
    In response to concerns voiced by servicemembers, the 
Department has conducted two separate studies of individuals 
who deployed to K2. The results of those studies were reviewed 
by the joint DOD/VA Deployment Health Working Group at the time 
of completion. The overall conclusions of these studies did not 
support worsened health outcomes among deployers at K2 when 
compared to those contemporaneously deployed to Korea. But 
nonetheless, there were some specific diseases, specifically 
lymphatic and hemopoietic cancers that appeared among the K2 
group at a rate higher than expected.
    In response to the concerns raised by your committee about 
the health of K2 veterans, the Department immediately renewed 
our discussions with the Department of Veterans Affairs, and 
the Department has worked closely with our VA colleagues in 
designing and implementing a much larger study of K2. So, any 
association between deployment to K2 and adverse health effects 
can be determined in a manner that is scientifically rigorous 
and comprehensive in its analysis.
    As you know, I've submitted written testimony in addition 
to the oral statement, and at this point, I will look forward, 
after Dr. Hastings' testimony and opening Statements, to 
answering your questions.
    The health and well-being of our servicemembers is my top 
priority and remains a top priority for the Department. Thank 
you very much.
    Mr. Lynch. Thank you.
    Dr. Hastings, you're now recognized for a verbal 
representation of your testimony.

 STATEMENT OF DR. PATRICIA R. HASTINGS, CHIEF CONSULTANT, POST 
   DEPLOYMENT HEALTH SERVICES, DEPARTMENT OF VETERANS AFFAIRS

    Dr. Hastings. Thank you.
    Chairman Lynch, Ranking Member Grothman----
    Mr. Lynch. I'm not sure if your mic is on.
    Dr. Hastings. Chairman Lynch, Ranking Member Grothman, and 
members of the subcommittee, thank you for the opportunity to 
discuss the ongoing activities and research the VA is 
undertaking to address the health concerns that may be 
associated with exposure to environmental hazards among 
veterans who were deployed between 2001 and 2004 to Karshi-
Khanabad, a former Soviet airbase in Uzbekistan, also known as 
K2.
    The VA is very aware that we owe those who served at K2 an 
understanding of possible health outcomes. The VA is committed 
to finding the answers and has embarked on a specific K2 study. 
The study will be long-term and not a one-time effort looking 
at this cohort.
    The Department of Defense did the initial and subsequent 
site assessments, and you have been afforded those copies. They 
have also shared them with the VA, and we began working on 
this, as Dr. Smith said, very early on with the Deployment 
Health Working Group.
    The 2015 Army Public Health Center evaluated cancer 
outcomes and compared the K2 servicemembers to a group deployed 
to South Korea but never deployed to southwest Asia. Leukemias 
and lymphomas did have an increased risk, and the relative risk 
was 5.6. But to put this in a context, this is seven cases at 
K2 and five cases in Korea. The small number of cases could be 
a coincidence, but it could also be an early signal. Even a 
small number of cancers in servicemembers that are relatively 
young is a cause for concern. The VA is taking these results 
very seriously, specifically for cancers, but also looking at 
other health outcomes.
    The VA will expand upon the 2015 Army Public Health Center 
study. We have identified, with the help of DOD, the 15,777 in 
the total cohort. 15,743 of those are currently veterans, with 
34 who are still on Active Duty.
    My office has put together a comprehensive prospective 
epidemiologic study to assess the possible associations between 
health conditions and exposure to the environmental hazards 
during their K2 deployment. This will take 12 to 18 months to 
complete with our current assets. The study will also include 
assessments of morbidity, and this will be looking not only at 
cancers but also at circulatory, respiratory, neurologic, and 
other conditions.
    It includes a very good set of comparison groups. It will 
be a group of Operation Enduring Freedom, cohorts that served 
at the same time but never at K2, and a group that are the OEF 
era but did not deploy to K2 or to southwest Asia. And we plan 
for this to go on for approximately 20 years because of the 
latency of some of the issues that may come up with the cancer 
concerns.
    In conclusion, the VA is committed to looking at the health 
and well-being of all veterans, but specifically here, the K2 
veterans, and we're dedicated to looking at the long-term 
health consequences. This is expected to translate into better 
care for the veterans. It's also expected to help the DOD in 
looking at future protective measures they may want to take 
during deployments. And we do appreciate your support.
    We are now available for your questions.
    Mr. Lynch. Thank you very much.
    Thank you for your testimony, Dr. Smith and Dr. Hastings.
    Just to begin, I am blessed, my district, we have three VA 
hospitals within my district in Brockton, Massachusetts, in 
Jamaica Plain, and West Roxbury, Massachusetts as well, and we 
are extremely thankful for the wonderful work that is done by 
our docs and staff, therapists, and the wonderful, wonderful 
service that they render to our veterans all across New 
England, mostly, the area that we service. So, we're very 
thankful for the job that the VA has done in large part within 
the system.
    However, during our investigation, we've heard from dozens 
of veterans whose lives have been irreversibly altered by toxic 
exposures at Karshi-Khanabad, K2. Their stories are absolutely 
heartbreaking, but I'd like to take a moment to share just a 
few.
    Sergeant Doug Wilson joined the Air Force in 1998 and 
deployed to K2 in December 2001. He returned in 2013, but--
excuse me--he retired in 2013, but just three years later, he 
was diagnosed with primary central nervous system lymphoma. To 
this day, Mr. Wilson rides a mile and a half in a mechanical 
wheelchair twice a week to attend his physical therapy 
appointments.
    Chief Warrant Officer Scott Welsh was diagnosed with 
thyroid cancer in 2013. In testimony before our subcommittee in 
February, he wrote: At one time I was worried that since I was 
younger than my wife, I would outlive her in old age. However, 
now every day all I can think about is how will she go on after 
I'm gone, do we have all of my final arrangements in order, and 
how will my two sons be taken care of?
    Sadly, one of my constituents from Norwood, Massachusetts--
and Norwood has a long and strong history of military service 
and patriotism to our country throughout its history. One of my 
constituents from Norwood, Kim Brooks, lost her husband, 
Lieutenant Colonel Tim Brooks when he was only 36 years old. He 
left behind four young children, one of whom followed in his 
father's footsteps and graduated from West Point and is now 
serving in Active Duty.
    To date, K2 veterans have self-reported nearly 500 
instances of cancer and nearly 2,000 adverse health conditions. 
These veterans and their families, quite frankly, have 
sacrificed enough. There's more than enough evidence produced 
by this subcommittee, produced by the Army, and produced by K2 
veterans themselves, to indicate that these conditions are 
service connected.
    But when K2 veterans turn to the VA for help, they hear the 
same thing over and over: There's no presumption associated 
with K2 service and there's no indication of increased cancers.
    What is the danger in providing this presumption even if a 
handful of these veterans have diseases not caused by their 
service? They all put on the uniform to serve this country; 
they all deserve to be taken care of.
    Dr. Hastings, is that such a bad thing? Is that what we're 
guarding against here?
    Let's think about the upside of this. A presumption would 
provide any of these veterans coming forward with cancer--they 
come in and they've reported cancers, that's not in dispute. 
It's a 15,000-personnel universe of people, probably much less 
right now, and they come forward with accurately diagnosed 
types of cancers.
    What the VA is saying is, we acknowledge that you've got 
cancer, we acknowledge that you served at K2, we acknowledge 
that the Army has reported that there were radioactive 
isotopes, depleted uranium, there was jet fuel, there were 
toxic substances where you served, and it permeated the ground. 
It's been evacuated. We've done soil samples, and we know those 
hazardous substances, in some cases radioactive, and we have 
signs where--the military put signs up, radioactive area, 
please keep out. And we built an earthen berm, which does 
nothing--the radiation goes right through the earthen berm--and 
we kept the soldiers there.
    So, knowing all of that, and then these soldiers come 
forward and they've demonstrated and have been diagnosed by the 
VA and others that they've got cancer, and we deny them 
coverage or benefits because we say, we think you may not have 
gotten it here. So, it's a veteran with cancer and we're 
denying them benefits.
    The downside is that maybe one of these poor veterans got 
cancer from a source other than K2, and they might be covered. 
In my opinion, that is not a--I would absorb that risk. If 
there are a few poor souls that might get treatment and 
benefits because they've got cancer after putting on that 
uniform and serving their country, if that's the downside for 
the government here, I embrace it. Cover them all. Cover them 
all. Give them the benefits and the care that they deserve, but 
don't deny them all for the, you know, for the misplaced 
concern that a couple of veterans with cancer might get 
treatment and benefits that they might not have connected to 
their service at K2.
    So, I see the duty and honor that we owe to these veterans 
as being primary, and I see a great disservice being done to 
these families and these veterans for a bureaucratic mis-
ordering of priorities. Maybe you can explain it to me. Why, 
why, why would we deny this presumption with the evidence in 
hand when we owe these veterans so much? And the consequences 
of not providing the benefits and care are devastating to these 
families, and in my opinion, disrespectful of their service as 
well. I don't know. Can you help me with that?
    Dr. Hastings. Certainly, sir. I am a veteran of 33 years 
and----
    Mr. Lynch. Thank you for your service. Appreciate that.
    Dr. Hastings. Well, thank you for giving me a job I've 
loved my entire life.
    We are committed to veterans. I am at the VA specifically 
because I want to take care of veterans. And Dr. Stone, just as 
an aside, was also at K2, so he understands the imperatives 
here.
    It would be a disservice to the veterans to simply say--and 
this is all veterans--to simply say, we don't know how you got 
it, we're just going to cover it. My office looks at the 
science. I want to find out what the exposures were.
    I'd like to tell you a little bit about depleted uranium, 
if I could. You, Congress, has supported the Depleted Uranium 
Center in Baltimore for over 30 years, and we have an 
incredible amount of experience with depleted uranium ever 
since the Manhattan Project. We have 84 veterans that we bring 
back every two years to look at them, who were involved in 
friendly fire incidents, and they do not have an excess 
mortality, excess morbidity. They are looked at every two 
years. And they do have the demonstrable isotopic signature of 
DU.
    We have done 6,500 other urines for people concerned about 
exposure to DU, and only five have been positive, and all five 
had embedded shrapnel that had not been identified by them 
before. We have had 37 urines turned in from the K2 cohort. We 
have had 25 that were completed. All are negative for the 
isotopic signature of depleted uranium. We are----
    Mr. Lynch. What about jet fuel?
    Dr. Hastings. To finish, DU--for just a moment, we are 
absolutely willing to do a urine on every single K2 veteran for 
peace of mind.
    With regards to the underground leaking tanks, the DOD did 
look at the volatile organic compounds and did not find them to 
be at a hazardous level.
    You go back to the depleted uranium. There was a weapon 
that was detonated, blew up, outside the berm. It was--DU can 
only penetrate to about two cell levels of the skin, so the 
berm would have been protective. And, absolutely, people should 
not have gone anywhere near the areas that were cordoned off, 
covered with dirt. But the DU--there were hotspots, but the 
hotspots were close to the ground in those areas, not that you 
would be measured at high levels away from those hotspots. And 
they were known, they were mitigated.
    The other hazards that were there, the dust--it was a very 
dusty environment. My office is continuing to look at the 
airborne hazards issues. We worried about lead. There was one 
building that had lead paint. So, we're looking at all those 
things. But if I simply say right now, you have cancer, we're 
covering it, we don't--I want to find the reason so this 
doesn't happen again.
    Mr. Lynch. Many of these veterans who have cancer, some 
have already passed away. The longer the VA and the DOD extend 
the time out for this, you know, they'll--it sort of, it's moot 
and meaningless to a lot of these families. So----
    Dr. Hastings. I absolutely agree. Time is of the essence, 
and that's why my office is--good science takes time, and I 
have to say, we have what has been described as an elegant--
epidemiologists like to use that term--protocol, and it will 
give us many of the answers that you seek. It will take some 
time. And we are working with DOD hand-in-hand to make sure we 
have the entire cohort, to make sure we have all the data and 
to have the comparison groups. But you are right, this is the 
imperative.
    I would like to also----
    Mr. Lynch. It's been--I need to reclaim my time----
    Dr. Hastings. Sorry.
    Mr. Lynch [continuing]. And we have to move on. But, you 
know, the recommended mitigation measure was, don't dig, don't 
disturb the soil. That was the mitigation that was recommended 
onsite.
    The other thing is, I understand you say it's going to take 
time, but it's been 20 years. It's been 20 years since some of 
these veterans served at K2 and acquired these diseases. So, 
that's not comforting for a lot of these families. You know, 20 
years, that's a long time. We own that, we all own that. But 
you understand that we can't allow this situation to continue. 
That's why we asked to have someone from the VA, a senior 
policymaker from the VA, to testify today in your place.
    In fact, I'll now like to enter into the record a November 
10 letter from myself, Chairwoman Maloney, Ranking Member 
Comer, and Ranking Member Grothman, the gentleman from 
Wisconsin, to Secretary Wilkie, making that request, so that we 
might have someone who could actually change the policy or 
recommend that the policy be changed on behalf of these 
veterans and their families.
    Mr. Lynch. It should not be this hard for the men and 
women, who dutifully raised their right hand in service to our 
Nation, to get the healthcare and the disability benefits that 
they have earned by their courageous service. And the VA needs 
to fix this. It needs to fix this now.
    I will now yield to my friend, the ranking member, the 
gentleman from Wisconsin, for five minutes, for his questions. 
Mr. Grothman.
    Mr. Grothman. Thank you.
    I guess I'll start with Dr. Smith. You said there were two 
type of cancers in which the amount of cancers found exceeded 
the population as a whole or exceeded what we found in the 
Korean group. Is that right?
    Mr. Lynch. Dr. Smith, you might have to click your 
microphone on.
    Dr. Smith. Yes, sir, that's correct. In the 2015 study, 
there were--and this is a study that we did--epidemiologists 
would call a hypothesis-generating study, that is, they looked 
at many different outcomes, and they found that in 
lymphopoietic and hemopoietic cancers, that there was an 
increased incidence.
    Initially, they also found melanoma, but then when they did 
the normalization and the various work done by epidemiologists, 
that was no longer considered statistically significant.
    Mr. Grothman. What were the numbers on that?
    Dr. Smith. I think it was eight.
    Mr. Grothman. Eight? I mean, what was the difference 
between the Korean group----
    Dr. Smith. Oh, I see.
    Mr. Grothman [continuing]. And the K2 group?
    Dr. Smith. Yes, sir. The relative risk, as I think Chairman 
Lynch had said at the beginning, was 5.64. But the confidence 
interval is very wide. It ranged from 1.7 to 18 point----
    Mr. Grothman. And what does 5.64 mean?
    Dr. Smith. That there is a five times increased risk, 
potentially.
    But the study, as you may have seen, has caveated that 
extensively because of the size of it and the numbers, that we 
don't know--and that's the reason why it's very important to be 
doing the study that we're doing now, because of the size of 
the numbers.
    Mr. Grothman. Can you nail the numbers for us, like, how 
many does that mean, just numbers, like how many people had the 
cancer in K2, and how many had it in the control group and----
    Dr. Smith. Yes, sir. It was eight in both.
    Mr. Grothman. Pardon?
    Dr. Smith. It was eight.
    Mr. Grothman. Eight people had it in the K2 group?
    Dr. Smith. Yes, sir.
    Mr. Grothman. And how many people had it in the Korea 
group?
    Dr. Smith. I believe it was also eight.
    Mr. Grothman. Well, was the Korean group a lot smaller or--
--
    Dr. Smith. No. It was actually--it was larger.
    Mr. Grothman. A lot larger?
    Dr. Smith. Yes, sir. Yes, sir.
    Mr. Grothman. So--OK. Kind of significant amounts there.
    The Stronghold Freedom Foundation, which you're familiar 
with, right? I assume.
    Dr. Smith. Yes, sir.
    Mr. Grothman. Yes. They claim that in 45 veterans, they 
found 500 instances of adverse effects of toxic exposure. Are 
you familiar with their study or----
    Dr. Smith. I have not seen their study, no, sir. But I've 
heard the testimonies, et cetera.
    Mr. Grothman. OK. Have you looked into where they got those 
numbers?
    Dr. Smith. That is the purpose of the study, is, we're 
looking into, we have characterized those that have been in K2 
and are now doing the medical work to try to track those down.
    Mr. Grothman. OK. So, do you--I mean, that's a lot of 
people. That's like over 10 percent, right, if the numbers are 
accurate?
    Dr. Smith. We have so far found 15,777 that were deployed 
to K2, yes, sir.
    Mr. Grothman. OK.
    Dr. Smith. And if I could correct myself. I just looked it 
up. There were seven lympho---lymphatic neoplasms in the K2 
group, and there were six in the comparison group.
    Mr. Grothman. OK. But the comparison group had a lot more 
people?
    Dr. Smith. Yes, sir. Four times as many.
    Mr. Grothman. Four times. So, it really comes across then 
like about per, whatever, per thousand people or whatever, it 
comes across like five times as many in the K2 group, right?
    Dr. Smith. That's what the relative risk is, yes, sir.
    Mr. Grothman. Right. Isn't that kind of huge? And I realize 
it's small numbers, but kind of significant?
    Dr. Smith. It--whenever we do these--whenever we do these 
studies, it does raise a question, yes, sir.
    Mr. Grothman. Is there other type of cancers that went the 
other way that can----
    Dr. Smith. Yes, sir.
    Mr. Grothman. OK. Can you give me an example?
    Dr. Smith. I don't have the study in front of me, but in 
general, overall, there were not other statistically 
significant ones, but there was a--there was a greater number 
of cancers in general when you looked across all of them in 
this cohort. They're healthier in all the other measures.
    Mr. Grothman. So, you're telling me the K2 group was 
healthier than the Korea group?
    Dr. Smith. As far as other parameters that they looked at.
    Mr. Grothman. OK. OK. Now, you were aware, or the military 
was apparently aware before these people were deployed there--
well, I'll give you a followup, because you're making a point 
that I think you want to make there. Do you have any specific 
examples that you can elaborate on showing us where the Korean 
group was not?
    That's OK.
    Dr. Smith. I can take that one----
    Mr. Grothman. You can show it to me later.
    Dr. Smith. It's in the study, but----
    Mr. Grothman. Yes, yes.
    Can I give him one more followup question?
    Mr. Lynch. Sure.
    Mr. Grothman. You apparently knew about the potential 
hazards before the troops were deployed there, and I suppose, 
you know, action can be taken as where the troops move on the 
base or that sort of thing. It appears as though that something 
should have been said to the troops about some potential 
hazards, and they weren't told about it. Is that accurate?
    Dr. Smith. No, sir. As far--I can't speak to the actual 
individual, but clearly in the various reports that we have 
provided to you, there were documented evidence of townhalls, 
of various information brochures that were prepared. It was 
made quite clear, as is part of our policy, to make sure that 
you communicate the results each time. There were multiple 
different assessments done at K2, and each time there would be 
an in-brief and an out-brief, questions. All the people that 
were interested, and some of them, as you'll see as you read 
through the reports, actually were mandatory for all people 
that were at K2. There were also information made for both the 
deployers and also for the providers.
    We also, as you know, do post-deployment health assessments 
to be able to make sure that if there are any concerns, that 
they're recognized, and that we have those discussions with and 
do the evaluations that are required. So, I do not think it's 
accurate to say that there wasn't any communication with the 
individuals that deployed over.
    Mr. Grothman. OK. Thank you.
    Mr. Lynch. The gentleman yields back.
    The chair now recognizes the full committee chairperson, 
the gentlelady from New York, Mrs. Maloney, for five minutes.
    Mrs. Maloney. Thank you for holding this important hearing. 
I have supported this investigation since day one because it 
has so many parallels to the experience of the 9/11 first 
responders, where we had to work for years to get them the help 
that they needed.
    In both cases, brave men and women answered the call to 
serve this country, but when they asked for help, they were too 
often ignored and not met with any kind of help but only delay 
after delay. That's why the initial responses from both 
Department of Defense and the Department of Veteran Affairs to 
the concerns of K2 veterans and our committee have been so 
disappointing.
    Last December when the McClatchy news outlet first reported 
that K2 veterans were being diagnosed with cancers at alarming 
rates, the VA's first response was telling McClatchy, quote, 
the premise of your inquiry is false. At the time we knew that 
at least 61 K2 veterans had been diagnosed with cancer.
    Then in response to the first letter that Chairman Lynch 
and I sent to the VA in January, VA Secretary Wilkie responded 
by saying, quote, there is no presumption associated with K2, 
and currently there is no indication of increased cancers, end 
quote.
    It wasn't until April, after continued pressure from this 
committee, that the VA stated it would conduct a new health 
study of K2 veterans. Yet the VA told us once again, quote, 
currently there is no indication of increased cancers, end 
quote. They said this even while acknowledging reports that 
there were up to 360 instances of cancer among K2 veterans. 
Today, K2 veterans have self-reported almost 500 instances of 
cancer within their community.
    So, my question is, Dr. Hastings, why did it take the 
involvement of our committee for the VA to begin studying K2 in 
earnest?
    Dr. Hastings. Ma'am, I am very glad to have the support of 
this committee. It's exceedingly important. But I would not 
characterize VA as not caring. There was not an indication of 
an increased cancer rate when Dr. Wilkie wrote that letter. My 
office is exploring this in its totality.
    I would like to note that 59 percent of the K2 veterans 
have submitted a claim for their service, and in most cases, 
the claims are related to those normal things that we see with 
people who have worked hard in the military, and that is 
musculoskeletal issues. Twenty people have turned in a claim 
that is related specifically to K2.
    I am right now looking at the statistics with VBA to find 
other answers, what are the things that are being put in as 
claims. I am very concerned about any environmental exposure 
for any veteran, and my office explores these. This study that 
is being done will give us----
    Mrs. Maloney. Thank you. My time is limited. I apologize, 
my time is limited. I have future questions.
    But I would say 62 reported, 500 self-reported by veterans, 
and no action until this committee got involved demanding 
answers. You may have been very concerned, but my question was, 
why were you so slow in responding to our requests? Why did you 
not act on it before we made our request? And I will put more 
questions in writing to you on this instance. I congratulate 
the chairman for his constant attention on it.
    But also, I want to ask, DOD was also slow to respond to 
the committee's concerns. Chairman Lynch and I first asked the 
Department to provide all environmental and health assessments 
related to K2 on January 13, 2020. By the time we received 
declassified versions of these documents in June, markings 
showed they had been declassified months before, between 
February 14 and February 24. These documents were declassified 
before the subcommittee held a hearing with K2 veterans on 
February 27. Yet DOD provided classified versions of the 
documents to the subcommittee on March 18.
    Dr. Smith, if these assessments were declassified in 
February and you cared so much about helping the veterans, why 
didn't the Department make them public or at least produce them 
to the committee right away? So, why did DOD----
    Dr. Smith. Ma'am, I can't--I can't answer for the timeline 
of getting the products over to you, but I do know that we have 
provided the information that we have.
    Mrs. Maloney. Well, I am concerned----
    Dr. Smith. I apologize for any delays on behalf of the 
Department, but I'm glad that you have what you have.
    Mrs. Maloney. OK. So, go back and take a look at it. Right 
now, just go back and look at it and get back to us why DOD 
delayed provided classified assessments to the committee if 
they were already declassified in February.
    I would say that your actions resulted in months of wasted 
time, time that these six veterans cannot get back. The fact 
that it took pressure from Congress and dire reports in the 
press to get the VA and DOD to even acknowledge, this is deeply 
unfortunate and does a disservice to our veterans.
    I thank the chairman for his leadership, and I yield back.
    Mr. Lynch. Thank you. The gentlelady yields back.
    The chairman now recognizes the gentleman from Texas, Mr. 
Cloud, for five minutes. You're now recognized.
    Mr. Cloud. Could you pass on me for the moment and come 
back to me?
    Mr. Lynch. I'm sorry. Repeat. You want to pass?
    Mr. Cloud. Yes. I believe there's a couple members before 
me.
    Mr. Lynch. OK. The chairman recognizes the gentleman from 
Louisiana, Mr. Higgins, for five minutes.
    Mr. Higgins. I thank the chairman. I appreciate this 
hearing. I 100 percent agree with your very heartfelt line of 
questioning, Mr. Chairman. This is a--this is a very 
frustrating sort of category of topic between the veterans and 
the VA.
    Dr. Hastings, thank you for your own service, ma'am. We 
have veteran brothers and sisters across the country that are 
watching this very carefully because it's a familiar story. You 
know, Agent Orange, burn pits, K2 now we're discussing today. 
The three elements for granting presumptive condition is a 
current diagnosis of a disease or a condition, an in-service 
event, and a link between the in-service event and that 
diagnosis.
    Dr. Hastings, what would happen, what would be the pushback 
if the VA granted presumptive condition diagnosis for K2 
veterans that present with conditions that may be associated 
with their in-service time at K2? What would be the pushback? 
Who would get in trouble for that? Would you please answer that 
briefly?
    Dr. Hastings. No one would get in trouble as such. When 
we----
    Mr. Higgins. Thank you.
    Dr. Hastings [continuing]. Put a presumption together, we--
--
    Mr. Higgins. Thank you. So, in the interest of time, with 
all due respect, we're trying to establish veterans' rights to 
services here. So, let me just--you just acknowledged that 
nobody would get in trouble. If the VA ran out of money, you 
come back to Congress. It happens all the time. So----
    Dr. Hastings. What I would like to note is----
    Mr. Higgins [continuing]. If it was in your power--if it 
was in your power, Dr. Hastings, to grant presumptive condition 
to K2 veterans, would you do it?
    Dr. Hastings. Not at this time, no.
    Mr. Higgins. Why not?
    Dr. Hastings. I want to have an absolute answer for the 
veterans. I want them to know if their service was associated--
--
    Mr. Higgins. In the long term--again, in the interest of 
time, we understand--listen, by all means, study, seek deeper 
scientific understanding, but you're talking about--I have 
quotes from your statement, you're committed to find answers, 
we're looking at long-term studies, large group studies, the 
current findings could be an early signal.
    You have veterans that don't have time. They don't have 
time for long-term study. I don't understand why the VA would 
not just grant presumptive condition to K2 veterans that 
present with conditions and diseases that very well may have 
been caused by their service exposure to conditions at K2.
    None of us argue against--none of us on this committee are 
saying don't study. By all means, conduct your long-term 
studies, but in the meantime, grant these veterans the 
presumptive coverage that they need to address the diseases 
that they very likely contracted while in service to our 
country at K2.
    Please just explain to the committee what--you've already 
said there'd be no pushback, nobody would get in trouble. But 
these veterans and their families are most certainly in trouble 
with the health conditions. So, what--I'll give you my 
remaining time. Please respond, because we don't understand, on 
this committee, why the VA would not just go ahead, while 
you're conducting your long-term studies--knock yourself out 
with your long-term studies, we want that, we understand it. In 
the meantime, grant these veterans the presumptive coverage 
that they need.
    And you've stated there'd be no pushback, but that if it 
was in your power, you would not do it. We don't understand. 
I'll give you my remaining 45 seconds to explain, ma'am. And 
again, thank you for your service. We get it that you're 
dedicated. We do not understand this lack of providing service 
to our veterans, though. I give you the floor, good lady.
    Dr. Hastings. Most veterans receive direct service 
connection, and as I said, 59 percent of the K2 veterans have 
turned in a claim. Twenty of them specifically believe that 
they're related to K2 and have put it in that way. So, veterans 
are able, and we encourage every veteran to turn in a claim if 
they believe military service has negatively impacted them. But 
at this point in time, the Secretary, in order to put forward a 
presumption, would need to have scientific support, and that is 
not there at this time.
    We are going to get him an answer. I will get him an 
answer. I care very deeply about the K2 situation, but it would 
be a disservice to say, put in the presumption, because then 
the urgency is just not there to find the answers for these 
veterans. So, direct service connection, absolutely put in a 
claim. We will look at those. I'm looking at them with VBA 
right now, but a presumption is premature.
    Mr. Higgins. Thank you, good lady, for participating in 
today's hearing.
    Mr. Chairman, I yield.
    Mr. Lynch. I thank the gentleman. The gentleman yields 
back.
    The chair now recognizes the gentleman, the ranking member, 
the gentleman from Wisconsin, for the purpose of introducing a 
unanimous consent request.
    Mr. Grothman. Yes. I'd like to--unanimous consent to place 
testimony from the February hearing into the record. It's just 
a one-sentence thing, so do you mind if I read it?
    It's from a master sergeant, Paul Widener, and his 
testimony was just contradictory to what you guys gave us. K2 
members were told repeatedly that no significant risk from 
hazards existed, there were no briefings on toxic exposures, no 
protective equipment recommended, issued, or employed.
    Thank you.
    Mr. Lynch. Without objection, the unanimous consent request 
is granted, and the document is entered into evidence.
    Mr. Lynch. The chair now recognizes the gentlelady from 
Illinois, Ms. Kelly, for five minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    Due to the work of this subcommittee, we now have new 
evidence about the conditions that U.S. servicemembers lived 
and worked in when they deployed to Camp Stronghold Freedom 
between 2001 and 2005.
    In July, our committee released hundreds of pages of 
previously classified K2 health and environmental assessments. 
These reports, which the U.S. military produced in 2001, 2002, 
and 2004, detail multiple toxic hazards that servicemembers 
were exposed to at K2. For example, according to one assessment 
during subsurface soil testing in 2001--and I quote--elevated 
levels of volatile organic compounds and total petroleum 
hydrocarbons were detected at numerous locations throughout 
Stronghold Freedom.
    A June 2002 operational health risk assessment estimated--
and I quote--between 50 percent and 75 percent of personnel at 
Stronghold Freedom will be exposed to elevated levels of 
compounds in the air.
    And a September 2004 health assessment described the 
probability of exposure to particulate matter as, quote, 
frequent.
    Mr. Chairman, I request unanimous consent to enter into the 
record an Environmental Protection Agency web page titled, 
Health and Environmental Effects of Particulate Matter, which 
reads: Small particles less than 10 micrometers in diameter 
pose the greatest health problems, because they can get deep 
into your lungs, and some may even get into your bloodstream.
    Mr. Chairman, I request unanimous consent to enter into the 
record a fact sheet from the Agency for Toxic Substances and 
Disease Registry website which reads: Studies in humans suggest 
that exposure might lead to a higher risk of getting bladder 
cancer, multiple myeloma, or non-Hodgkin's lymphoma.
    Dr. Hastings, in your opening statement, you testified that 
the VA is conducting an epidemiological study to better 
understand the health outcomes for K2 veterans. What conclusion 
or conclusions would need to be derived from this study that 
would lead the VA to make a presumptive service connection for 
K2 veterans?
    Dr. Hastings. The study will look at cancer specifically, 
but it will also look at other conditions. It will look at 
circulatory, neurologic. It will look at the mortality rates. 
So, it is a comprehensive look.
    And I absolutely agree with you and with the ATSDR, who we 
work with in my office very closely, that particulate matter is 
problematic, as are the other exposures that are there, and we 
are looking at all of those.
    Ms. Kelly. And what can Congress do to better help these 
veterans and prevent this from ever happening again?
    Dr. Hastings. I think DOD is very cognizant of the 
protections that they need to employ to take care of people 
before they ever get to VA. That's No. 1. When I deployed, I 
came back, I had to do the post-deployment health assessments 
just like every soldier, even though I'm a physician.
    At the VA, we are getting answers. I know that people use 
Agent Orange as the issue that was delayed. We learned a lot of 
things from that. We learned from Agent Orange. We began 
embarking on looking at this when it was brought out in 
McClatchy. We started working immediately with the Deployment 
Health Working Group and our colleagues at DOD to get the 
adjudicated list of the veterans to make sure that we had all 
of the assessments. And we are working hand-in-hand with this.
    The support that you can give us is exactly like this, to 
bring this to the attention of the veterans. I will note that 
whenever we have an airborne hazards discussion with Congress, 
our numbers in the airborne hazards registry go up. And only 
about 17 percent of the people at Karshi-Khanabad have entered 
the registry. I know that there are some, because Uzbekistan is 
not listed as one of the registry countries, but 80 percent of 
the people at Karshi-Khanabad are eligible for the registry. 
And that is another way that we can look at their deployments 
and their health history.
    Ms. Kelly. Thank you.
    Dr. Hastings. So, the support you give us is important. You 
support us also with the deployment with the Depleted Uranium 
Center in Baltimore, and that has been extremely helpful with 
looking at K2.
    Ms. Kelly. OK. The hazards at K2 created an environment 
that put the heroes of Camp Stronghold Freedom at significant 
risk, including for cancer and other respiratory and 
neurological conditions. Based on what we already know about 
the hazards found at K2, I'm not sure what additional evidence 
that the VA could possibly need to conclude that the illnesses 
reported by K2 veterans are service connected.
    And I yield back.
    Mr. Lynch. The gentlelady yields back.
    I do want to rule that the gentlelady from Illinois' 
request, unanimous consent request, is granted without 
objection, and the committee will receive those documents as 
evidence. Thank you.

    Mr. Lynch. I now like to recognize my friend from 
Tennessee, the gentleman, Mr. Green is also a K2 veteran, and 
he is now recognized for five minutes.
    Mr. Green. Thank you, Chairman Lynch and Ranking Member 
Grothman, for holding this hearing. And I want to thank our 
witnesses for testifying today.
    Chairman Lynch, I especially am grateful for you and for 
all the time and effort that you've put in to getting to the 
bottom of this. With 16,000 K2 veterans out there, we 
appreciate your effort and are closer today to some answers 
because of you.
    I think everybody on the committee knows that I flew 
through K2 as a night stalker. It is deeply unsettling that two 
decades later, others who were there are now battling cancer 
with no answer about a service connection. The DOD and the VA 
really should know by now.
    As a doctor who had to do substantial research while 
earning my medical degree, I'm fully aware of the need for 
these studies to be thorough and scientific, but if we can 
create two ground breaking messenger RNA coronavirus vaccines 
in less than a year, we can certainly study health effects on 
K2 troops from thoroughly researched toxins that we know the 
effects of and have known the effects of for many, many years.
    I don't want to point the finger at our witnesses here 
today. I know this was a problem long before they got to the 
jobs, but these veterans need help and they need it now. The VA 
motto is to care for him who shall have borne the battle. We're 
grateful for all the steps you're taking and are counting on 
you guys to ensure these men and women are treated fairly. We 
cannot leave them, my brothers and sisters, our brothers and 
sisters, as Dr. Hastings has said she served as well, behind.
    My first question revolves around some recently published 
information. CBS did a special, Catherine Herridge interviewed 
senior intelligence community member Mike Lechlitner. He was 
there at the time and conducted the assessments of K2.
    In your written testimonies, you mentioned that radiation 
was possibly not all that high, but Mr. Lechlitner claims quite 
differently saying that he saw readings of seven to nine times 
higher than normal. He even determined that there was 
yellowcake present, which neither written testimonies mention. 
He was even handed a bag of it, he said in his comments to CBS. 
He also notes that there was arsenic and cyanide, which, again, 
neither testimony mentions.
    I'd just like a, you know, yes or no from either of you, 
was there yellowcake at K2?
    Dr. Smith. This is Dr. Dave Smith. The answer is, we did 
not find any evidence of yellowcake. Initially, on the first 
survey that was done, it was indicated that it was uranium 
material. On further analysis--as you know, some of those 
things can't be determined in the field, but on further 
analysis, it was determined that it was oxidizing depleted 
uranium. So, no, there was not yellowcake. It is certainly 
possible that he was in the first tranche of surveyors and then 
did not hear about the subsequent results. Over.
    Mr. Green. Dr. Hastings?
    Mr. Lynch. Just a clarification. When we're talking about 
yellowcake, we're talking about unprocessed uranium or lower 
level process uranium, is that what we're talking about?
    Dr. Smith. We're talking about depleted uranium. Yellowcake 
is actually enriched or--it's an old term that was basically 
would be part of where you're trying to enhance the 
characteristics of uranium. Over.
    Mr. Green. It's a--yes. It's a precursor to a weapon, 
right?
    Dr. Smith. That's right.
    Mr. Green. Dr. Hastings, your awareness of any yellowcake 
at the site?
    Dr. Hastings. Again, in looking at the information that was 
there, there was uranium. The supposition was it was 
yellowcake, but it was not. It was rusting or oxidizing 
depleted uranium. So, yellowcake was not there.
    Mr. Green. Thank you for sharing that.
    Dr. Hastings, in your written statement, you encourage 
veterans to receive the DU urine testing. And I'm not 
suggesting that this is your fault, but I have a document from 
the VA from one of my constituents who actually went to the VA. 
And in reading over the document from the VA on explaining what 
happened at K2 and the potential risks that those veterans were 
exposed to, it seems to me--and I can get you a copy of it--it 
seems to me to sort of downplay the need for these veterans to 
get the DU urine test.
    I'd like to know from you that there's a commitment that 
every veteran who asks for that test gets that test.
    Dr. Hastings. Yes. When a veteran asks for that test, we 
have a Depleted Uranium Center that the test is done by the 
Joint Pathology Center or done by the CDC. Veterans can come in 
and get that test. As I said, the 6,500 that we have done for 
people that were exposed in Gulf war and the 37, of which 25 
have been completed, all have been negative except for five 
from the first Gulf war and that was related to shrapnel. And 
they were negative, so I believe that most of them----
    Mr. Green. I understand your sample--I understand that your 
sample size is such that it is, but in the document that I saw, 
it seemed to discourage--it seemed to tell the VA staff how to 
discourage veterans from requesting the test. I just want to 
make sure
    [inaudible].
    Dr. Hastings. I would like to see that because I would not 
discourage it. I would like to see it. I would not discourage 
it. In fact, we encourage it because peace of mind is 
important.
    Mr. Green. Thank you.
    Thank you, Mr. Chairman. I yield.
    Mr. Lynch. The gentleman yields back, and I thank him for 
his questioning and for his service.
    The chair now recognizes the gentlelady from Virginia, who 
is also the chair of the VA subcommittee on disability 
assistance, and she as well is a United States Navy veteran. 
Mrs. Luria, you're now recognized for five minutes.
    Mrs. Luria. Thank you, Chairman Lynch. And thank you to the 
Oversight Committee and the subcommittee for allowing me to 
participate today.
    As the chair of the Disability Assistance and Memorial 
Affairs Subcommittee on Veterans' Affairs and also a member on 
Armed Services of the Military Personnel Subcommittee, I'm very 
interested in this issue. I'm glad that we have the opportunity 
to speak to our witnesses today.
    I would like to request unanimous consent to enter in the 
record two letters, one that I have recently written and 
received a response from Secretary Wilkie at the VA, and 
another to former Secretary Esper at Armed Services, with their 
enclosures as well, providing responses on this issue.
    Mr. Lynch. Without objection, so ordered.
    Mrs. Luria. And I'd like to start with addressing an issue 
of trust. I think that in even just the responses to these 
letters and coupling that with the testimony we've received 
today, there is an enormous amount of conflicting information. 
And being familiar with the other issues of toxic exposure that 
we're dealing with in the Veterans' Affairs Committee, having 
recently provided healthcare to additional veterans, Blue Water 
Navy veterans for their exposure to Agent Orange, extensively 
investigating the issues surrounding burn pits, as well as this 
K2 issue, it seems that there is information provided to 
veterans that does not instill their trust in the system, both 
within DOD healthcare and within the VA. And I'd like to cite 
several things here, and these were provided to me by Secretary 
Esper's response.
    One of those is specifically concerning advice provided to 
healthcare providers addressing the concerns of K2 veterans. 
And although this is an undated document, it's assessed in the 
remarks here that it was approximately dating from around 2001 
or 2002. What can I do to build trust and rapport? So, this is 
the provider to the patient who's concerned about exposure at 
K2.
    And in this Army document it says: Summary of key messages. 
The most important messages to communicate are, one, there were 
no K2 exposures of health consequence; the protective risk 
control measures were effective; and show care and commitment 
during clinical care; ongoing monitoring ensures continued 
protection.
    So basically, they told the veterans, don't be worried 
about it.
    And then I found this other document as one of the 
enclosures from the Army Public Health Center and it says: You 
do not need to get a medical examination or have any additional 
medical screenings just because you were at K2.
    So, for our veterans who are watching today who have 
concern about this, this information that they provided is 
directly in conflict to what you've been discussing today.
    And then, Dr. Hastings, specifically, you said that there 
was no evidence when Secretary Wilkie responded to the letter 
of inquiry from the Oversight Committee; however, I have here 
in what I was provided by Secretary Esper, a July 2015 Army 
Medical Department Journal, which specifically states that this 
is an important topic which is worthy of public health efforts 
and resources. It gives the same statistical data that has been 
given about the two types of cancer with increased incidence 
and the same statistical data in a chart here that we've 
discussed today, and that dates to 2015. So, I don't understand 
your response there.
    And I would like to shift further to the fact that, Dr. 
Hastings, in your testimony today, your written testimony 
doesn't discuss water. There's been environmental samplings for 
airborne particulates, for soil quality, but you don't address 
water in here at all. And then when I revert back to a document 
that I was also provided by the Department of Defense, the 
Periodic Occupational Environmental Monitoring System, from 
2001 to 2005 at K2, it does address water. But in that it 
specifically says both the short-term and long-term health 
risks, they talk about the sampling that was done. It actually 
contradicts itself because it says no samples were taken from 
water that was purified by reverse osmosis units and the 
concern and contaminants in that were not evaluated. However, 
in the next paragraph, it says that they did receive samples 
from that.
    Long story short--and you can review this. It'll be entered 
in the record.--it says the confidence in these risk estimates 
about water, both short and long-term health risks are low.
    So, in my remaining time, can you address why you did not 
address anything related to water? Because we're talking about 
fuel contamination in the soil, depleted uranium in the soil. 
And I'm not an environmental scientist or a doctor, but my 
understanding is that if we're using a source of groundwater, 
that these things leech into groundwater, and they should be 
very closely scrutinized as far as the water that people were 
both using for non-potable water sources, i.e., bathing, 
cooking, cleaning, as well as water that was being purified by 
reverse osmosis units because that process is, you know, less 
effective at removing contaminants than, say, a distilling unit 
process, and what water samples were taken and what further 
analysis is needed on the water that people were consuming 
while they were stationed at K2?
    Dr. Hastings. Chair Luria, I'd like to take that for the 
record and get you a complete answer. The water that was--is 
used in deployment, as you know from being military, is very 
important, and in many cases, it is bottled water, but I need 
to investigate that to get you a complete answer.
    Mrs. Luria. OK. Well, this--just to say that this 
references reverse osmosis units that were being used for the 
potable water, so I would be interested in seeing your followup 
testimony on that.
    Dr. Hastings. Absolutely. I'll take that for record. Thank 
you.
    Mrs. Luria. OK.
    Dr. Smith. If I can add, there were multiple reports of the 
water testing and the various technical reports that actually 
did test both the potable water and some of the bottled water. 
And all of them said that it was--there were no concerns 
related to potable water, but we'll provide you additional 
information on that.
    Mrs. Luria. Well, thank you. I would be interested in that. 
Because, again, I'll quote what the study says, is the 
confident in the risk estimates about potable water are low, 
and this is a final study reviewed by CENTCOM and then approved 
in May 2011 conducted by the U.S. Army. So, I would appreciate 
any followup additional studies that have been conducted.
    And thank you, again, to the chair for allowing me to 
participate. And I yield back.
    Mr. Lynch. The gentlelady yields back.
    As well, I'd point out in the Stronghold Freedom Foundation 
report that was provided to the committee, there were 345 
claims of urological disorders, as well as 397 cases of 
neurological disorders among K2 veterans. So, that might also 
support the questions and emphasis that the gentlelady from 
Virginia has put on some of these reports.
    And, you know, I do want to amplify that some of these on-
the-ground reports and assessments were given a low level of 
confidence in terms of the threat that was present on the 
ground.
    So, with that, I would like to recognize the gentlelady 
from North Carolina, Ms. Foxx, for five minutes.
    Ms. Foxx. Thank you, Mr. Chairman.
    My first question's for Dr. Hastings. Has the VA determined 
whether long-term health problems in K2 veterans arise after 
having served on the K2 base?
    Dr. Hastings. That is one of the things that this study 
will address. At this point in time, the veterans, if they 
believe that the military service has negatively impacted their 
health, that they proceed with a claim for direct service 
connection. At this time, without the study, we cannot say that 
there is an association.
    As you know, many of these veterans deployed to many other 
locations also and thus the reason we have the other two 
cohorts, one that was deployed to OEF but not to K2, and the 
other that is an OEF error but not deployed to either K2 or 
OEF. That's what will give us the answers.
    Ms. Foxx. Dr. Hastings, I'm over to your left. I'm right up 
on the dais.
    Dr. Hastings. Oh, I'm sorry.
    Ms. Foxx. Over here.
    Dr. Hastings. There you are.
    Ms. Foxx. OK. Is there scientific evidence that 
demonstrates that K2 veterans are not suffering these health 
effects as a result of their service on the K2 base?
    Dr. Hastings. No. And that's the reason we need the study.
    Ms. Foxx. Are there any other viable explanations for the 
large number of toxic exposure in servicemembers who spent time 
at K2?
    Dr. Hastings. Yes. Veterans are exposed to many things 
during their service. And as I've noted a couple times before, 
59 percent of the K2 veterans have turned in a claim. The 
majority of those claims are for musculoskeletal issues. I am 
specifically looking at those issues that are of concern to 
this committee, and the study will give us many of those 
answers.
    Ms. Foxx. Dr. Smith, is it true that a 2001 health 
assessment found that ambient air in K2 was the main concern 
for environmental contaminants and found elevated levels of 
volatile organic compounds in petroleum hydrocarbons throughout 
the base?
    Dr. Smith. No, ma'am. The 2001 survey did find elevated 
volatile organic compounds in subsurface in wind in the 
digging, and there clearly early on was an incident with Uzbeki 
contractors where they were digging to create the berm where 
they ran into one of the underground plumes. And certainly 
folks had acute health effects at that time that were the 
contractors.
    That prompted a fair amount of additional survey. There 
clearly are volatile organic compounds that were found. None of 
them exceeded the exposure levels, that I'm aware of, in the 
surveys that were done in 2001, 2002, and 2004. So----
    Ms. Foxx. Well, to followup on that, is it true that a 2002 
health assessment found that between 50 and 75 percent of 
personnel at the K2 base would be exposed to elevated levels of 
toxic contaminants?
    Dr. Smith. I believe the 50 to 75 percent was related to 
the fact that there was an issue, which we find throughout 
southwest Asia, of particulate matter in the air, so dust. And 
certainly that is a risk in that part of the world, and it 
clearly does exceed what we consider to be exposure limits that 
we would set in the United States, but it's a reality of those 
deployments. Yes, ma'am.
    Ms. Foxx. So, what does Congress need to do to ensure that 
all eligible servicemembers and veterans receive the health 
benefits they're entitled to?
    Dr. Smith. Well, clearly that's not in the DOD's lane as 
far as ultimately determining that unless they happen to be a 
retiree. I will say, relative to the particulate matter, this 
has been a concern for a while and we have a number of studies 
that have been looking at that. To date, it's primarily 
respiratory related and for individuals who had a 
predisposition because of their makeup. But the STAMPEDE 
Studies and others have looked at this quite carefully and we 
continue to study that issue.
    Ms. Foxx. Thank you, Mr. Chairman. I yield back.
    Mr. Lynch. The gentlelady yields back.
    The chair now recognizes the gentleman from Arizona, Mr. 
Gosar. You're recognized for five minutes.
    The chair now recognizes the gentleman from Texas, Mr. 
Cloud, for five minutes.
    I know we have--there he is. OK.
    Mr. Cloud. Hello, hello, hello. Can you hear me?
    Mr. Lynch. We certainly can. Yes, please proceed. Thank 
you.
    Mr. Cloud. Well, thank you, Chairman, for hosting this 
hearing on this extremely important topic. Thank you, 
witnesses, for being here, for your service as well.
    This, of course, is an extremely important topic to all of 
us because we care about the men and women who served to 
protect our country. Of course, the grave concern is, you know, 
while we want these decisions to be science based and all is 
the concern of, if the science takes so long to develop to get 
the case, that it's a moot point of not being able to help 
those. We've seen that happen, tragically, in the past.
    So, Dr. Hastings, could you speak to the process of how you 
come to these conclusions? When do you get to the tipping 
point, so to speak, of when you--when you're able to balance 
the, OK, we have the information we need to make a decision 
here as opposed to continuing to get the science so exact that 
it can't help anybody because it takes so long? I mean, we're 
talking a couple decades now. And how long does it take for 
these symptoms to present? Can you speak to that, please?
    Dr. Hastings. First, I'll answer how long does it take for 
the symptoms to present. In some cases with toxic exposures, it 
can be in minutes, but with some of the cancers and the things 
we're looking at, there can be a latency period, as you know.
    With regards to studies, the model that is used by the 
National Academy of Science, Engineering, and Medicine looks at 
five levels. There is a level from causation all the way down 
to no evidence of an association. In most cases, causation is 
pretty hard to get to, and we don't look for causation. That's 
a very high bar. And, in fact, the National Academy of Science, 
Engineering, and Medicine has only used causation for exposure 
once and that was in Gulf War and Health, Volume 2, looking at 
fuels with regards to benzene and leukemias.
    In most cases, for example, the Agent Orange presumptions, 
most of those are evidence of an association or possibility of 
an association. So, we really are looking at associations, and 
I don't think with this we would get to causation. If we did, 
that would be surprising. So, we are looking at associations.
    Mr. Cloud. OK. I know in my district, one of the issues 
that has come up repeatedly that isn't exactly the same but 
related is the issue of burn pits and the families that have 
been affected by exposure. And in this case, we have a registry 
that, while the research has been ongoing, there's been a 
registry where people can register.
    Could you talk to what you all have done in the way of 
making sure that veterans have a way to--I know a number of 
them have state claims already, but what are you doing 
proactively to connect with veterans to inform veterans of 
their potential exposure?
    Dr. Hastings. Well, we do a lot of outreach. We have the 
website that we use. We send letters, and many times with 
regards to airborne hazards and open burn pits, specifically, 
we work with DOD. DOD sends out electronic as well as hard copy 
letter notices to anyone that may be eligible for the burn pit 
registry to encourage them while they're on Active Duty if they 
have been in the area that is eligible for the burn pit 
registry to make sure that they do apply.
    We do the same thing in the VA. We send out letters. We 
encourage people to apply. One of the things that you did here 
in Congress for us last year was you gave us some funding to do 
more outreach. And at this point in time, we are working with 
the funding that you gave us to put together a comprehensive 
plan to do more outreach to veterans, and this would be through 
podcast radio spots as well as some changes to the website.
    Mr. Cloud. OK. You mentioned that 59 percent of the claims 
at the site were musculoskeletal. Do you have a breakdown of 
the----
    Dr. Hastings. No. I'm sorry. Fifty-nine percent of K2 
veterans have submitted a claim and the majority of those are 
musculoskeletal, but I would need to take for the record any 
further breakdown.
    Mr. Cloud. OK. Yes, if we could get that information, that 
would be nice. Thank you.
    Thank you, Chairman.
    Dr. Hastings. Certainly.
    Mr. Lynch. The gentleman yields back. We thank the 
gentleman.
    The chair now recognizes the gentlelady from California, 
Ms. Speier, who is the chair of the House Armed Services 
Committee's Subcommittee on Military Personnel, and someone who 
has done a lot of work and is keenly interested in the health 
and care and protection of our veterans as well as our active 
military.
    So, Ms. Speier, you're now recognized for five minutes.
    I'm not sure if you are muted.
    OK. We see you.
    Ms. Speier, you're now recognized.
    We might have a technical issue here.
    Apparently, Ms. Speier's audio is not working.
    OK. While we're waiting to solve that technical issue, I 
would like to do a followup question.
    As I recall, the VA announced that it would conduct a new 
epidemiological study to assess the health outcomes of 
veterans. And, Dr. Hastings, you in your opening statement 
testified that this new study will take between 12 and 18 
months to complete. But I do want to note that it's already 
been almost seven months since the VA first told the 
subcommittee it planned to conduct the study.
    So, does it still need 12 to 18 months or are you baking in 
the six months that we've already--or seven months that we've 
already engaged?
    Dr. Hastings. I'm baking in the seven months; however, I 
will tell you that we are doing it with a very small staff at 
this point in time. We are working with DOD. So, at this point 
in time, I would say that by next--let's see. By next December 
is when I'm hoping that we would be able to give you at least a 
preliminary report on our findings, if not completion.
    Mr. Lynch. OK. Has the actual study started yet?
    Dr. Hastings. Yes.
    Mr. Lynch. So, beyond design?
    Dr. Hastings. It's beyond design. We have made the cohort 
selections.
    Mr. Lynch. OK. I do recognize--I welcome the additional 
research that, you know, if we can lead to faster diagnoses or 
improvement of treatment options for our veterans, but I'm just 
very concerned that we might reach a point where we have a 
study that gives us inconclusive results again, while we still 
have these veterans suffering and without their rightful 
benefits.
    You did refer a number of times to the VA study as being 
prospective, a prospective epidemiological study. What do we 
mean by that?
    Dr. Hastings. This is not going to be a one and done. This 
is going to be a study that has started now looking at the 
complete group, but it will go into the future. That is very 
important with some of the diseases that we see that are of 
concern.
    Mr. Lynch. OK. Dr. Smith, you noted that DOD has provided 
the VA with a--and this is a quote--a complete list of 
individuals who deployed to K2, as well as other background 
material and environmental assessments.
    With the exception of the roster, because I understand 
you've already provided high level numbers of, you know, 
privacy considerations, do the background materials and 
environmental assessments that you mentioned include additional 
documents or information beyond what DOD has already provided 
to the subcommittee?
    Of course, the universe we're talking about here.
    Dr. Smith. Yes, sir. I'm not aware of additional documents 
that you haven't received, but I'll look back to my subject 
matter expert and ask. So, that's what they've received along 
with--and we're working hand and glove with them to try to make 
sure--because they will also have all of the health records and 
the information that we have, post-appointment health surveys, 
et cetera, to help, you know, fill out the study to make sure 
all the information that's available is available to them.
    Mr. Lynch. That's helpful. We appreciate that, Doctor.
    I'm not sure if we have Ms. Speier back online, again. I 
would like to welcome her, again. Ms. Speier is the chair of 
the House Armed Service Committee, Subcommittee on Military 
Personnel, and a great partner of ours on this subcommittee and 
someone who is, as I say, keenly interested in the health, 
welfare, and protection of our troops, our active military, and 
our veterans.
    So, with that, I'd like to yield five minutes to Ms. 
Speier.
    Ms. Speier. Thank you, Mr. Chairman. I truly value our 
working relationship and appreciated all that you did on our 
recent codel to Fort Hood.
    I apologize to our witnesses because, as you know, we're 
having a caucus election contemporaneously. So, if this 
question has been asked, forgive me.
    But to you, Dr. Smith, you stated in your testimony that 
remediation measures such as, and I quote, covering 
contaminated areas with clean soil and declaring them, quote, 
off limits were taken to reduce the risk of these hazards.
    But in testimony before this subcommittee and in press 
accounts, veterans deployed to K2 stated that contaminated soil 
was used to build a berm around K2, used to fill sandbags, and 
that constant floods dispersed this soil around the base.
    One veteran who first deployed to K2 in 2001 testified 
that, quote, the DOD did not mitigate any risks within the work 
and living areas of K2, closed quote. So, given the health 
conditions reported by K2 veterans, would you agree that it's 
possible the Army's mitigation measures were not as effective 
at preventing toxic exposures?
    Dr. Smith. Thank you for the question. I have to rely on 
the evidence that we have, and I do not have any evidence to 
say that they did not do it. Now, within the first couple of 
weeks of deployment, this is when a number of these things were 
uncovered. So, clearly, the remediation did not get completed 
until a number of weeks to--and I can't give you a timeline, 
but certainly the follow-on technical reports, et cetera, have 
validated that the recommendations that they made had been 
implemented.
    Each time you do one of these surveys, you may find 
additional or--additional items that need further remediation, 
but I do not have any evidence to suggest that they were not 
done. Over.
    Ms. Speier. So, if you were given additional evidence, 
would you then review it and incorporate it in your study?
    Dr. Smith. Yes, ma'am. Absolutely.
    Ms. Speier. So, the study is going to be--forgive me. I did 
come late. The study is going to be completed within 180 days 
or not?
    Dr. Smith. I'll defer to Dr. Hastings, but--no, ma'am, I do 
not believe it'll be done in 180 days, because we want it to be 
thorough and scientifically rigorous, and I do not think that 
that is realistic. Over.
    Ms. Speier. So, have you given the committee an idea as to 
how long it will take?
    Dr. Smith. Yes, ma'am. In my testimony, I was suggesting 
that it will be somewhere between 12 to 18 months. I would 
expect certainly by 2022. Over.
    Ms. Speier. All right. Dr. Hastings and Dr. Smith, what 
more can DOD and VA do to expedite the healthcare for these K2 
veterans whose conditions might be related to their military 
service at K2, especially during the 12 to 18 months that you 
anticipate the study will take?
    Dr. Hastings. Ma'am, in many cases, veterans have access to 
VA-delivered healthcare. They are able to come to the VA, to 
register for healthcare. If they have not, if they have a 
service-connected illness, they also--if they got out of the 
military within five years, are eligible to come to the VA. And 
if they have transited through a combat area, they certainly 
are eligible under the combat eligibility listing.
    And, again, any military service that may have negatively 
impacted their health, we encourage them to put in a claim, and 
59 percent of the K2 veterans have done that so far.
    Ms. Speier. And you've been in communication with the other 
K2 veterans about the potential risk that they may have 
experienced?
    Dr. Hastings. We have been in contact with some K2 veterans 
who have contacted my office. We do have a website. We have 
that available for them to look at. We do have depleted uranium 
website also, and they are able to get tested for depleted 
uranium. You may have missed this, but we have had 25 K2 urine 
assays done for the isotopic signature of the depleted uranium. 
All of those have been negative. We have 12 more that are 
waiting to be completed, either at the Joint Pathology Center 
or at the CDC.
    This is a test that takes an analytical chemist, a Ph.D., 
with very fine instrumentation. We have done 6,500 of those for 
people involved in the Gulf war. All but five of those were 
negative, and those people had shrapnel injury.
    We do have 84 other veterans that had shrapnel injury from 
the Gulf war that we bring back every two years to look at and 
examine, and they are doing well. They have no excess 
morbidity/mortality in that group over what you would expect.
    Ms. Speier. Thank you, Dr. Hastings. My time's expired.
    Mr. Chairman, I would certainly recommend that if they've 
already identified that some 60 percent of the veterans from K2 
have been identified and have come forward, it would make sense 
that we should communicate with the remaining 40 percent of 
veterans who had been assigned to K2 to alert them to potential 
risks that they may have been subjected to. And maybe we can do 
that through an NDAA or a VA bill, but it's certainly something 
that should take place, I think, so that they're all aware. 
Going to a website, I think, is expecting a lot when people are 
trying to survive today.
    Thank you. I yield back.
    Mr. Lynch. I thank the gentlelady, and her point is well 
received. In questioning from the gentlelady from Virginia, 
Mrs. Luria, we did have records of letters from physicians who 
indicated that notification to the 40 percent, so to speak, was 
not given; that they were not advised that they should be alert 
to the possibility of medical conditions arising from their 
service at K2.
    So, I agree with the chairwoman of the House Armed Services 
Committee on Military Personnel that we should make that 
notification official and we should try to expedite it in the 
next available legislative vehicle. So, I welcome her 
participation in that and happy to work with her.
    I am told that we have Mr. Gosar back online. So, I'd like 
to recognize the gentleman from Arizona for five minutes.
    Mr. Gosar. Thank you, Mr. Chairman. And sorry we had a 
failure with the audio, but thank you for calling this hearing. 
And being so close to Veterans Day, I want to thank all our 
veterans for their service. And maybe looking at this in a 
little different light. You know, trust is a series of promises 
kept. And I think that's what we have to start by looking at 
this analogy is making sure that we're actually engaging the 
veterans. So----
    Now, between the fall of 2001 where troops are first 
deployed to Afghanistan and 2005 when Uzbekistan withdrew 
permission to the use of the base, it is estimated that 
approximately 10,000 individuals served at K2. But there are 
now concerns that this number may not be accurate, as it may 
not include those troops which served at K2 on a temporary 
assignment or may not identify troops who were there on 
classified assignment.
    Dr. Smith, does the DOD have an accurate accounting of how 
many U.S. troops served at the K2 base while it was in 
operation during the earlier, the war in Afghanistan?
    Dr. Smith. Sir, we continue to comb and look, as I 
mentioned in my testimony. Through a DMDC run, we have added to 
the number. We're now at 15,777, and it's what we have in our 
records to date, but we're doing due diligence and continually 
looking for other sources to be able to make sure that we do 
have the most complete list for the study. Over.
    Mr. Gosar. So, you basically tried to outreach to them, I 
mean, to make sure that they know that they have a possible 
exposure?
    Dr. Smith. Sir, I'm not aware of specific outreach 
specifically to K2. We do, as you're probably aware, do post-
deployment assessments for all of our returning servicemembers 
and also clearly advertise that we're available to discuss if 
they have any concerns associated with their deployments at any 
time. Over.
    Mr. Gosar. Well, I think that we ought to go even further. 
I think the gentlelady from California kind of started bringing 
this up, is instead of depending upon the veteran, it would be 
very nice for us to engage. You know, we have the records on 
our side, so shouldn't we as active DOD and Veterans' Affairs 
be reaching out as well?
    Dr. Hastings. Hi. This is Pat Hastings. I actually do have 
a letter here which we had planned on sending out in July; 
however, because of COVID, we have not sent it out. And it was 
advising them about where they could go to look for additional 
information. It spoke about the possibility of a depleted 
uranium test.
    So, I have the letter. I'm happy to share it. Because of 
COVID it was not felt to be wise to send it out at this time 
because the danger of COVID, specifically for a urine test, 
would be problematic. But we certainly could send it out and 
just ask them to wait until it is a safer environment and give 
them the information in regards to the website that they could 
get information from.
    Mr. Gosar. So, now, is there any way or a system that 
exists to identify these individuals like in states and 
districts? You know, like, I'm from Arizona, so we have a big 
veteran population. Is there a way that we could utilize the 
state numbers break down so that we may have an additional way 
of contact and maybe get, you know, ahead of the game instead 
of always trying to catch our tail?
    Dr. Hastings. I do not know if we would be able to get down 
to the district level. I can look at that and take that for 
record.
    Mr. Gosar. Yes. We're an asset. Every member here has a 
constituency of the veterans, and I just think that it's a, you 
know, building that trust that is so in need.
    But, you know, I thank everybody for coming, Mr. Chairman, 
very timely on the call for this hearing, and I think we need 
to keep our foot on the gas pedal to make sure that we're 
honoring our promises to make sure our veterans are healthy, 
wealthy, and wise.
    Thank you, Mr. Chairman.
    Mr. Lynch. I thank the gentleman.
    Let me just ask as a followup to Mr. Gosar's inquiry. How 
is the VA contacting veterans regarding their study? How is 
that facilitated?
    Dr. Hastings. We have the complete list and we are able to 
look at various data bases. One would be the mortality data 
bank that comes from the national data banks for mortality. We 
have cancer registries, et cetera. We actually do not need to 
contact the veterans specifically. We can look at their medical 
records. We can look at the different data bases nationally to 
look at their health conditions.
    Mr. Lynch. But when we look at the numbers that have self-
reported versus the ones that you've diagnosed; this is a much 
larger number that has self-reported.
    Dr. Hastings. In studies like this, self-report often is--
we would have to investigate those further, because self-report 
may not be accurate.
    Mr. Lynch. How would you know? If you miss--if you're not 
communicating with these veterans and they're not self-
reporting, then they're not----
    Dr. Hastings. Right. This is based----
    Mr. Lynch. They don't exist. So, what I'm saying is that if 
you got a veteran out there that's having medical problems and 
they know that there's a study going on at the VA regarding 
people that have served where they have served and that there's 
issues there, that would be helpful that they know about this.
    Dr. Hastings. We want them to get the medical care that is 
required, whether from the VA or their own physician, but we 
really are not looking at the care and treatment. We are 
looking at the conditions, and so we would not need to have the 
veterans sending us medical records and that sort of thing. We 
are looking at health outcomes.
    Mr. Lynch. I'm just trying to make them aware of the study.
    Dr. Hastings. Absolutely. And in this letter, which I'm 
happy to share, it does----
    Mr. Lynch. The one we haven't sent out yet?
    Dr. Hastings. I have not sent it out, but it does----
    Mr. Lynch. OK. So, we know because of COVID that all these 
appointments are being stretched out because we can't process 
them like we would, you know, under normal circumstances and, 
you know, that's understandable. However, some things can be 
done through telehealth methods. I know they're doing some of 
that at the VA where the servicemember's not coming in for 
treatment, but there's telehealth appointments being made so 
they can get information back and forth.
    So, I would encourage you with all dispatch to get that 
letter out, and we'll just have to deal with the backlog of 
cases in terms of appointments, but it's good to get them on 
the books, even if we can't conduct them in the short term, we 
at least plan to, and get this ball rolling and get more people 
informed of what's going on.
    Dr. Hastings. I will make the commitment to get the letter 
out and I will--the telehealth doesn't work really well when 
you're asking them to bring in a urine specimen. So, I will 
change the verbiage for that and ask them to wait on that 
portion until after it is a safer environment. But I will make 
the commitment to send the letter that lets them know there is 
a study that is going on and lets them know where they can get 
additional information.
    Mr. Lynch. Great. Great. Thank you.
    Let's see. Do we have an idea, once the study is completed, 
how long between the completion of the study and a decision on 
presumption or no presumption?
    Dr. Hastings. I would hesitate to speak for the Secretary, 
but if the Secretary has strong science, the Secretary is able 
to make those determinations.
    Mr. Lynch. OK. So, we're not quite clear on that. All 
right.
    I believe that concludes the number of members who were 
desiring to testify and to question.
    Let me--in closing, I just want to thank all the members. I 
realize there are several hearings going on; there's a caucus 
going on. There are a lot of other things going on, but I'm 
very pleased with the number of members who took the time to 
participate in this hearing. I want to thank the Ranking 
Member, Mr. Grothman from Wisconsin, for his leadership as 
well.
    I want to thank our panelists, Dr. Hastings and Dr. Smith. 
Thank you for your service to your country and for your 
willingness to come before the committee and help us with our 
work. This was a very important conversation and a very 
important process.
    With that and, without objection, all members will have 
five legislative days within which to submit additional written 
questions for the witnesses to the chair which will then be 
forwarded to the witnesses. And we just ask our witnesses to 
please respond as promptly as you are able.
    And this hearing is now adjourned.
    [Whereupon, at 11:53 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
